uow-vf Mppeai: i»-/oou

uuu: 10

rneu: uo/ua/^uzu

ry: i 01 z.

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7350
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.

MUSTAFA MUHAMMAD,
Defendant - Appellant.

Appeal from the United States District Court for the Eastern District of Virginia, at
Richmond. Robert E. Payne, Senior District Judge. (3:14-cr-00055-REP-DJN-l; 3:16-cv00798-REP-DJN)
Submitted: May 28, 2020

Decided: June 9,2020

Before MOTZ, WYNN, and DIAZ, Circuit Judges.

Dismissed by unpublished per curiam opinion.

Mustafa Muhammad, Appellant Pro Se.

Unpublished opinions are not binding precedent in this circuit.

£

cT]

uo^mh

/Appeal;

i»-/odu

uoc;

id

meu; uo/ua/^D^u

rg: z. 01 z.

PER CURIAM:
Mustafa Muhammad seeks to appeal the district court’s order denying relief on his
28 U.S.C. § 2255 (2018) motion. The order is not appealable unless a circuit justice or
judge issues a certificate of appealability. See 28 U.S.C. § 2253(c)(1)(B) (2018). A
certificate of appealability will not issue absent “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2) (2018). When the district court denies relief
on the merits, a prisoner satisfies this standard by demonstrating that reasonable jurists
could find the district court’s assessment of the constitutional claims debatable or wrong.
See Buck v. Davis, 137 S. Ct. 759, 773-74 (2017). When the district court denies relief on
procedural grounds, the prisoner must demonstrate both that the dispositive procedural
ruling is debatable and that the motion states a debatable claim of the denial of a
constitutional right. Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012) (citing Slack v.
McDaniel, 529 U.S. 473, 484 (2000)).
We have independently reviewed the record and conclude that Muhammad has not
made the requisite showing. Accordingly, we deny a certificate of appealability and
dismiss the appeal. We also deny Muhammad’s motion for a transcript at government
expense, as well as his motion to reconsider this court’s order deferring action on the
motion for a transcript. We dispense with oral argument because the facts and legal
contentions are adequately presented in the materials before this court and argument would
not aid the decisional process.
DISMISSED

2

uow-vt Mppeai: i»-/ oou

uou:

meu: uo/1 i/zu^u

ry: i 01 i

FILED: August 11, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7350
(3:14-cr-00055-REP-DJN -1)
(3:16-cv-00798-REP-DJN)
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.

MUSTAFA MUHAMMAD
Defendant - Appellant

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Motz, Judge Wynn, and Judge
Diaz.
For the Court
/s/ Patricia S. Connor. Clerk

Case 3:14-cr-00055-REP-DJN Document 146 Filed 07/19/19 Page 1 of 14 PaqelD# 2033

II IL If
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division

JU. 1 92019

UNITED STATES OF AMERICA
v.

Civil Action No. 3:14CR55

MUSTAFA MUHAMMAD
MEMORANDUM OPINION
The matter is before the Court on the 28 U.S.C. § 2255 Motion
(ECF No.
responded.

90)

filed by Mustafa Muhammad.1

The Government has

For the reasons set forth below, the § 2255 Motion

will be denied.
I.
On April 15,

2014,

PROCEDURAL HISTORY
a grand jury indicted Muhammad with

transportation of a minor for prostitution, in violation of 18
U.S.C. § 2423(a).

(Indictment 1, ECF No. 9.)

Subsequently, a

jury trial was held and Muhammad was found guilty of the charge in
the Indictment.

(ECF No. 40, at 1.)

Muhammad's Pre-Sentence

Investigation Report ("PSR") aptly summarized the evidence of his
guilt as follows:
[0]n March 14, 2014, Stafford County Sheriff's Office
First Sergeant Rob Grella conducted a prostitution sting
operation, wherein he telephonically contacted women
advertising
"escort"
services
on
the
website
1 The Court employs the pagination assigned by the CM/ECF
docketing system for the citations to Muhammad's submissions. The
Court omits any emphasis in the quotations from Muhammad's
submissions.
The Court corrects the spacing in the quotations
from Muhammad's submissions.
I

Case 3:14-cr-00055-REP-DJN Document 146 Filed 07/19/19 Page 2 of 14 PagelD# 2034

www.backpage.com (Backpage). Law enforcement is aware
that women advertising as escorts on Backpage are
frequently engaged in prostitution.
First Sergeant
Grella telephoned a female using the moniker "Scarlet"
advertising in Fredericksburg, Virginia with an ad title
of "Back for the First Time," and using telephone number
202-644-2963.
The female agreed to travel to First
Sergeant Grella, who was using a room at the Wingate
Hotel, 20 Sanford Drive in Stafford County, Virginia.
The woman entered the hotel and agreed to engage in
oral and/or vaginal intercourse with First Sergeant
Grella in exchange for money. The woman was detained by
First Sergeant Grella for further investigation,
The
woman initially provided First Sergeant Grella with
false information regarding her age, but after further
questioning, the female (hereinafter identified as
Juvenile 1) informed First Sergeant Grella that she was
a 16 year old runaway from Maryland with a date of birth
of March 20, 1997.
A check of police records and
information from Juvenile l's family confirmed Juvenile
1 was in fact 16 years old at the time of arrest.
Juvenile 1 informed First Sergeant Grella that she was
in the company of three other persons and that they were
all staying in a room at the Holiday Inn Express, 5422
Jefferson Davis Hwy, Fredericksburg, Virginia 22407.
Mr. Muhammad was detained leaving his hotel by police in
a vehicle described as a 1995 Toyota . . . registered to
Mustafa Muhammad .... Also in the vehicle were Lillie
Edmonds, an adult female, and Alfred Leroy Thompson, an
adult male.
Ms. Edmonds and Mr. Thompson were also
detained pending further investigation.
Juvenile 1 was interviewed by Stafford County
Sheriff's Office Detective Sean Danyluk on March 15,
2014. Juvenile 1 stated that she met Mr. Muhammad on a
social media website known as Tagged.com.
Law
enforcement is aware that pimps often use this website
to recruit persons into prostitution.
According to
Juvenile 1, she met Mustafa Muhammad on or about March
13, 2014, at a hotel near Clinton, Maryland, where she
prostituted on his behalf. Juvenile 1 stated that Mr.
Muhammad posted advertisements on Backpage for her and
used her real photographs in the ads.
Juvenile 1
indicated she gave Mr. Muhammad some of the proceeds
from her acts of prostitution,
She stated they then
traveled to Spotsylvania County, Virginia, Juvenile 1
reported that Mr. Thompson was also present at the hotel
in Clinton, Maryland.
2

Case 3:14-cr-00055-REP-DJN Document 146 Filed 07/19/19 Page 3 of 14 PagelD# 2035

According to Juvenile 1, on March 14, 2014, Mr.
Muhammad decided to leave Maryland for Virginia.
Mustafa Muhammad^told Juvenile 1 that they would make a
lot of money in Virginia due to Juvenile l's light
complexion.
Prior to leaving Maryland, the three
individuals (Juvenile 1, Mustafa Muhammad, and Alfred
Thompson) picked up Ms. Edmonds, who was staying at a
different hotel in Maryland,
All persons in the car
were aware they were traveling to Virginia for the
purpose of Juvenile 1 and Ms. Edmonds to engage in
commercial sex acts.
Juvenile 1 [stated] that Mr.
Muhammad again posted her on Backpage in Fredericksburg,
Virginia.
She stated they obtained room 520 at the
Holiday Inn Express.
Juvenile 1 disclosed that she
travelled to the Wingate Hotel in Stafford County in the
Toyota driven by Mr. Muhammad.
(PSR SI 6-9 (paragraph numbers omitted).)
On

September

17,

2014,

the Court

entered

judgment

sentenced Muhammad to 120 months of incarceration.
No. 51.)

Muhammad appealed.

Court of Appeals

and

(J. 2, ECF

On May 5, 2015, the United States

for the Fourth Circuit affirmed Muhammad's

conviction and sentence.

United States v. Muhammad. 601 F. App'x

226, 227 (4th Cir. 2015).

On November 2, 2015, the United States

Supreme Court denied Muhammad's petition for certiorari.

Muhammad

v. United States. 136 S. Ct. 425 (2015).
On April 11, 2016, the Court received Muhammad's Motion for
a New Trial.

(ECF No. 74.)

In the Motion for a New Trial, Muhammad

made a frivolous claim that the Court and the prosecution used a
false name and initials for the juvenile victim.

(See id.)

By

Memorandum Opinion and Order entered on October 11, 2017, the Court
denied Muhammad's Motion for a New Trial.

3

(ECF Nos. 126, 127.)

Case 3:14-cr-00055-REP-DJN Document 146 Filed 07/19/19 Page 4 of 14 PagelD# 2036

On September 26, 2016, Muhammad filed the present § 2255
Motion wherein he demands relief upon the following grounds:
Claim One

The prosecution knowingly used false testimony
when it allowed the juvenile victim to state
her initials were J.B. (§ 2225 Mot. 2-3.)2

Claim Two

The prosecution violated Brady v. Maryland,
373 U.S. 83 (1963) by suppressing evidence
reflecting the correct initials for the
juvenile victim. (§ 2255 Mot. 4-5.)

Claim Three

The prosecution violated Muhammad's rights
under the Double Jeopardy Clause3 by utilizing
misinformation about the juvenile's initials
and age. (Id. at 6.)

Claim Four

(a) "The Court was without jurisdiction to
hear the case without the proper proof of
identification and a certified authentic birth
certificate of the 'alleged' minor."
(Id.
at 8 (citation omitted).)
(b)
Additionally,
the
Court
lacked
jurisdiction because the matter should have
been tried in the Alexandria Division. (Id.)

^ Claim Five

Muhammad is actually innocent of the crime of
which he was convicted. (Id. at 9.)

v/ Claim Six -

Muhammad was denied the effective assistance
of counsel because:
(a) "counsel failed to investigate the true
identity
and
age
of
the
'alleged'
minor . .
(id. at 10);
(b) counsel failed to show Muhammad a DVD
recording of an interview with the minor, (id.
at 11); and,

2 The Court corrects the punctuation in the quotations to that
refer to the juvenile victim's initials.
3 "No person shall . . . be subject for the same offence to
be twice put in jeopardy of life or limb . .
U.S. Const.
amend. V.
M

4

Case 3:14-cr-00055-REP-DJN Document 146 Filed 07/19/19 Page 5 of 14 PagelD# 2037

(c) counsel failed to challenge on appeal the
lack of adequate evidence with respect to the
juvenile victim's age, (id. 12-13).
Claim Seven

The
Court
constructively
amended
the
Indictment by providing a jury instruction
with respect to transporting an individual
across state lines for prostitution. Muhammad
"was not charged or indicted on the charge of
bringing anyone across state lines for the
purpose of prostitution. He was charged with
bringing a minor across state line for the
purpose of prostitution." (Id. at 14.)

Claim Eight

The Court failed to provide the jury an
adequate instruction with respect to the
impeachment of the Government's star witness.
(Id. at 16.)

The Government has responded and moved to dismiss.
No. 98.)«

Muhammad filed a Reply.5

(ECF No. 105.)

(ECF

As explained

below, the Court finds that Claims One through Four, Seven and

4 On April 3, 2017, Muhammad
further proceedings on his § 2255
decided Turner v. United States,
Supreme Court decided that case on

requested that the Court stay
Motion until the Supreme Court
137 S. Ct. 1885 (2017).
The
June 22, 2017.

5 To the extent Muhammad seeks to add vague new claims in his
Reply, the Court notes that Muhammad cannot add new claims by a
passing reference in these submissions.
See Snyder v. United
States, 263 F. App'x 778, 779-80 (11th Cir. 2008) (refusing to
consider petitioner's statement in a reply brief as an attempt to
amend his § 2255 motion to add a new claim); E. I. du Pont de
Nemours & Co. v. Kolon Indus • t Inc •9 847 F. Supp. 2d 843, 851 n.9
(E.D. Va. 2012); Equity in Athletics, Inc, v. Dep't of Educ •9 504
F. Supp. 2d 88, 111 (W.D. Va. 2007) (citations omitted) (explaining
that "new legal theories must be added by way of amended pleadings,
not by arguments asserted in legal briefs"). Therefore, to the
extent that Muhammad seeks to add any new claims in his Reply, the
new claims will receive no further consideration in this action.
5

Case 3:14-cr-00055-REP-DJN Document 146 Filed 07/19/19 Page 6 of 14 PagelD# 2038

Eight are procedurally defaulted.

Additionally, the Court finds

that Claims One through Six(c) lack merit.
II.

PROCEDURAL DEFAULT

In collateral proceedings, a petitioner may not assert claims
he could have raised, but failed to, on direct appeal.

Stone v.

Powell, 428 U.S. 465, 477 n.10 (1976); United States v. Linder.
552 F.3d 391, 396-97 (4th Cir. 2009).

A petitioner is barred from

raising any claim reviewable on appeal absent showings of cause
and prejudice or actual innocence.

See Bousley v. United States,

523 U.S. 614, 622-23 (1998); United States v. Frady, 456 U.S. 152,
167-68 (1982).

In order to establish cause, the petitioner must

demonstrate that something "external to the defense" prohibited
him

from

raising

the

issue

on

appeal.

United

States

v.

Mikalajunas, 186 F.3d 490, 493 (4th Cir. 1999) (citation omitted).
Here,

the Government correctly notes that Muhammad defaulted

Claims One through Four, Seven, and Eight by failing raise these
claims at trial and on direct appeal.
Initially,

Muhammad

excuses his default.

suggests

that

his

actual

innocence

As explained below, infra Part III, Muhammad

fails to demonstrate that he is actually innocent.

Accordingly,

the Court rejects that argument for excusing his default.

With

respect to Claims One through Four, Muhammad contends that the
ineffective assistance of counsel constitutes cause to excuse his

6

Case 3:14-cr-00055-REP-DJN Document 146 Filed 07/19/19 Page 7 of 14 PagelD# 2039

default of these claims.6

As explained below,

infra Part III,

Claims One through Four lack factual and legal merit so counsel
was not deficient for pursuing Claims One through Four,

The Court

will dispose of those claims in conjunction with the discussion of
Muhammad's contention that he failed to receive the effective
assistance of counsel.

As Muhammad has not advanced a viable basis

for excusing his default of Claims Seven and Eight, Claims Seven
and Eight will be dismissed.
III.

EVIDENCE PERTAINING TO THE VICTIM' S NAME AND AGE

The Indictment charged that "[o]n or about March 14, 2014,
through on or about March 15, 2014, . . . . MUHAMMAD, did knowingly
transport an individual who had not attained the age of 18 years
in interstate and foreign commerce,
individual engage in prostitution."

with the intent that such
(Indictment 1, ECF No. 9.)

Prior to trial, the Government filed a motion pursuant to 18
U.S.C. § 3509(d) to protect the juvenile victim's identity.
No. 23.)

(ECF

By Order entered on June 13, 2014, the Court granted the

motion and ordered, inter alia,
that the parties and the witnesses shall not disclose
the
alleged
minor
victim's
name
at
pre-trial
proceedings, trial, or post-trial proceedings in this
case.
The parties shall prepare their witnesses and
instruct them to refer to the minor victim only by the
6 Muhammad alleges that he only recently learned of the
information about the victim's use of false initials by "repeatedly
asking [counsel] for information from case file." (ECF No. 90-7,
at 10.)
7

Case 3:14-cr-00055-REP-DJN Document 146 Filed 07/19/19 Page 8 of 14 PagelD# 2040

victim's initial and all counsel shall refer only the
alleged minor victim's initials, rather than by name.
(ECF No. 25, at 1-2.)
Prior to the entry of the above Order, the Government had
provided counsel for Muhammad with the victim's redacted birth
certificate.

(ECF No.

98-1, at 1-2.)

The birth certificate

reflected that the victim's initials were "J.B." and that her date
of birth was in 1997.

(Id. at 2.)

At the beginning of her testimony, the Government asked the
minor to state her initials, to which she responded, "J.B."
Tr. 194.)

(Trial

J.B. then stated that she was seventeen and her date of

birth was "3-20-97."

(Trial Tr. 194.)

Thus, the record reflects

that the victim was under eighteen at the time of the offense and
at the time of the trial.
In his § 2255 Motion, Muhammad directs the Court to two
interview reports, prepared by Special Agent Matthew Rosenberg.
In the first report, SA Rosenberg interviewed, Lilly Edmonds, who
was driven to Virginia with Muhammad and the juvenile for the
purpose of prostituting the juvenile and Edmonds.
at 1-2.)

(ECF No. 90-1,

When recounting the information provided by Edmonds, the

report refers to the juvenile victim's initials as "J.T."

(Id.)7

$ 7 The reference to the juvenile victim in this report as JT
may be a scrivener's error or may reflect some initial confusion
by SA Rosenberg as to the victim's last name because the victim's
mother's last name starts with the letter T.
(See ECF No. 90-2,
at 2.)
8

Case 3:14-cr-00055-REP-DJN Document 146 Filed 07/19/19 Page 9 of 14 PagelD# 2041

The second report is SA Rosenberg's notes of his interview
with the juvenile victim.

(ECF No. 90-2.)

That report identifies

the juvenile victim by the initials "J.B • / " seventeen times.

(Id.)

In his § 2255, Muhammad contends that because the first report
utilizes the initials J.T • / the juvenile victim must have lied
when she said her initials were J.B • / and the Government knew she
was lying.

Whatever the genesis of the reference to the victim's

initials as J.T.

in SA Rosenberg's first report may be,

the

overwhelming, credible evidence before the Court reflects that the
juvenile victim's correct initials were J.B. and that she was under
18 at the time of the offense.

Accordingly, Muhammad's contention

that he is actually innocent for transporting a minor in interstate
commerce for prostitution lacks merit.
dismissed.

Claim Five will be

Additionally, as explained more fully below, counsel

was not deficient and Muhammad was not prejudiced by counsel's
failure to pursue the frivolous claims Muhammad urges here with
respect to the victim's initials and age.
IV.

INEFFECTIVE ASSISTANCE

To demonstrate ineffective assistance of counsel, a convicted
defendant must

show first,

that counsel's

representation was

deficient and second, that the deficient performance prejudiced
the defense.

Strickland v. Washington, 466 U.S. 668, 687 (1984).

To satisfy the deficient performance prong of Strickland,

9

the

Case 3:14-cr-00055-REP-DJN Document 146 Filed 07/19/19 Page 10 of 14 PagelD# 2042

convicted defendant must overcome the

w 1

counsel's strategy and tactics fall

'within the wide range of

reasonable professional assistance. t 9t

Burch v. Corcoran, 273 F.3d

577, 588 (4th Cir. 2001)

strong presumption' that

(quoting Strickland, 466 U.S. at 689).

The prejudice component requires a convicted defendant to "show
that there is a reasonable probability that, but for counsel's
unprofessional errors, the result of the proceeding would have
been different.

A reasonable probability is

a probability

sufficient to undermine confidence in the outcome."
466 U.S. at 694.

Strickland,

In analyzing ineffective assistance of counsel

claims, it is not necessary to determine whether counsel performed
deficiently
prejudice.
A.

if

the

claim is

readily

dismissed

for

lack

of

Id. at 697.
Claims Pertaining To The Age And Identity Of The Victim

As noted above, Muhammad suggests that counsel's deficient
performance was the cause for his failure to pursue Claims One
through Four.

Because counsel had no reason to believe that the

prosecution was utilizing incorrect initials for the victim or
misrepresenting her age,

counsel reasonably eschewed pursuing

Claims One through Four(a) and Six(a).

Moreover, Muhammad fails

to demonstrate any reasonable probability of a different result
had counsel pursued these claims or further investigations about
the victim's name and age. Accordingly, Claims One through Four(a)
and Six(a) will be dismissed.
10

Case 3:14-cr-00055-REP-DJN Document 146 Filed 07/19/19 Page 11 of 14 PagelD# 2043

B.
In

Alleged Improper Venue
Claim

Four(b),

Muhammad

asserts

this

Court

lacks

jurisdiction because the matter should have been tried in the
Alexandria

Division.

The

Court

already

rejected

a

similar

challenge by Muhammad when it denied Muhammad's post-conviction
Motion to Transfer.

The Court explained:

Federal Rule of Criminal Procedure 18 states:
Unless a statute or these rules permit
otherwise, the government must prosecute an
offense in a district where the offense was
committed. The court must set the place of
trial within the district with due regard for
the convenience of the defendant, any victim,
and
the
witnesses,
and
the
prompt
administration of justice.
Fed. R. Crim. P. 18. While "the Constitution, the Sixth
Amendment
and Rule 18 of the Federal Rules of Criminal
Procedure
guarantee that a defendant will be tried in
the state where the crime was committed," United States
v. Wharton, 320 F.3d 526, 536 {5th Cir. 2003), there is
"no constitutional guaranty that the accused ha[s] the
right to a trial in the division of the district in which
the offense was committed." Franklin v. United States,
384 F.2d 377, 378 (5th Cir. 1967); see United States v.
Florence, 456 F.2d 46, 48-50 (4th Cir. 1972) (district
court did not abuse discretion when it denied
defendant's motion to transfer from one division to
another within same district).
Muhammad is correct that the minor victim traveled
to Stafford County, Virginia, to meet with the
undercover officer.
(June 23, 2014 Tr. 118-19.)
Stafford County is located within the Alexandria
Division.
See Va. E.D. Loc. R. Crim. P. 18(B)(1).
However, the Government also provided testimony that the
minor victim had been staying in Spotsylvania County,
Virginia, with Muhammad.
(June 23, 2014 Tr. 121.)
Spotsylvania County is located within the Richmond
Division. See Va. E.D. Loc. R. Crim. P. 18(B)(4). Thus,
venue was proper in either division.

11

Case 3:14-cr-00055-REP-DJN Document 146 Filed 07/19/19 Page 12 of 14 PagelD# 2044

(ECF No. 126/ at 10-11.)

Accordingly/ counsel was not deficient,

nor was Muhammad prejudiced, by counsel's failure to argue this
Court lacked jurisdiction over his case,

Claim Four(b) will be

dismissed.

c.

Failure To Allow Muhammad To View DVD

In Claim Six(b), Muhammad complains that counsel failed to
allow him to view a DVD recording of an interview of J.B.
acknowledges
transcribed

that

counsel

statement

of

did

the

provide

him

interview.

an

Muhammad

Muhammad
accurately
fails

to

demonstrate that such actions by counsel were unreasonable or that
he was in any way prejudiced thereby.

Accordingly, Claim Six(b)

will be dismissed.
D.

Ineffective Assistance On Appeal

In Claim Six(c), Muhammad faults counsel for filing an Anders8
brief on appeal.

Muhammad, however, fails to identify any viable

issue that appellate counsel should have pursued.

To the extent

that Muhammad suggests that insufficient evidence was introduced
at trial to prove the victim's age, he is wrong.
to demonstrate deficiency or prejudice,

Claim Six(c)

dismissed.

8 Anders v. California, 386 U.S. 738 (1967).
12

As Muhammad fails
will be

Case 3:14-cr-00055-REP-DJN Document 146 Filed 07/19/19 Page 13 of 14 PagelD# 2045

V.

MUHAMMAD' S OUTSTANDING MOTIONS

Because the Government was granted an extension of time and
thereafter timely filed its Response, Muhammad's REQUEST TO ENTER
DEFAULT JUDGMENT

(ECF No.

96)

and RENEWED MOTION FOR DEFAULT

JUDGMENT (ECF No. 102) will be denied.
Because no need exists to appoint counsel or conduct an
evidentiary hearing, Muhammad's MOTION FOR EVIDENTIARY HEARING
(ECF No. 106) and MOTION FOR THE APPOINTMENT OF COUNSEL (ECF No.
Ill) will be denied.
Muhammad has sought leave to conduct discovery.

Rule 6(a) of

the Rules Governing § 2255 Proceedings allows a judge to authorize
discovery only for good cause.

In this context,

"good cause"

cannot exist unless "specific allegations before the court show
reason to believe that the petitioner may, if the facts are fully
developed, be able to demonstrate that he is . . . entitled to
relief." United States v. Roane, 378 F.3d 382, 403 (4th Cir. 2004)
(alteration in original) (quoting Bracy v. Gramley, 520 U.S. 899,
908-09 (1997)).
standard.

As reflected above, Muhammad cannot satisfy this

Accordingly, Muhammad's MOTION FOR AN ORDER COMPELLING

DISCOVERY UNDER § 2255 (ECF No. 110) and THIRD MOTION FOR AN ORDER
COMPELLING DISCOVERY UNDER § 2255 (ECF No. 119) will be denied.
Further, as Muhammad fails to demonstrate a particularized need,
his EXPEDITED MOTION FOR PRODUCTION OF GRAND JURY MATERIALS (ECF

13

Case 3:14-cr-00055-REP-DJN. Document 146 Filed 07/19/19 Page 14 of 14 PagelD# 2046

No. 109) and MOTION FOR PREPARATION OF TRANSCRIPT AT GOVERNMENT
EXPENSE (ECF No. 134) will be denied.
Because Muhammad fails to demonstrate that he is entitled to
bail, a hearing, or any further review or relief from the Court,
his remaining outstanding motions (ECF Nos. 139, 141, 142, 144,
145) will be denied.
VI.

CONCLUSION

Muhammad's claims will be dismissed.
will be denied.
denied.

The outstanding motions

The 28 U.S.C. § 2255 Motion (ECF No. 90) will be

The action will be dismissed.

The Court will deny a

certificate of appealability.
It is so ordered.
/s/

(UT

Robert E. Payne
Senior United States District Judge
Richmond, Virginia
Date: July
, 2019

•

14

:n v\^eFfi,v r^enpv
r£ ^tnp ,

avv^

I'S^wy

r^ Mov&j^e^^ ^css^ t ^ ^^r\eA

4 <A & y^t-v cj?
-ShvR<V P
>c>_;
C ^a^\o(U^4
A>c>e. Pc^r lker\dei/~FVI-Si0^o
Sgjcg^Ac^ A^e . XkVlcxoT Mq :.

2s

Snr<e£M&

cdo^
V

/0o£q

£10*5^

Sc^rovVr^ylB. (•rgJOP&£s\_____________
^>p ^To <^4c TSoSsPcj?.

o J^>L> 1

.(jile^L<^c^^Ci__SO:530__

l^<^cA§^\Vy £^oWoTAtei4j

Musmppr MUtmAMiMS
<53^*5 M: -<S33*
FC31 ^e04-\£Y - MEN.
?oOc>^>cS^ S5C^
y^f
7

4

\2^

